Audit Report




OIG-12-036
SAFETY AND SOUNDNESS: In-Depth Review of Unity National
Bank
January 11, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents


Audit Report
  Causes of Unity’s Failure ............................................................................           2
    Aggressive Growth Strategy ..................................................................                  2
    Weak Credit Administration Practices ......................................................                    3

  OCC’s Supervision of Unity……… ...............................................................                    4
    OCC Appropriately Used PCA ………………………………………………. ........                                                        7

  Conclusion ...............................................................................................       8

Appendices

  Appendix     1:      Objectives, Scope, and Methodology ....................................                   10
  Appendix     2:      Background........................................................................        12
  Appendix     3:      Management Response .......................................................               14
  Appendix     4:      Major Contributors to This Report .........................................               15
  Appendix     5:      Report Distribution ..............................................................        16

Abbreviations
  ADC                  acquisition, development, and construction
  ALLL                 allowance for loan and lease losses
  CRE                  commercial real estate
  CRP                  capital restoration plan
  DIF                  Deposit Insurance Fund
  FDIC                 Federal Deposit Insurance Corporation
  IMCR                 individual minimum capital ratio
  MLR                  material loss review
  MRA                  matter requiring attention
  OCC                  Office of the Comptroller of the Currency
  PCA                  prompt corrective action
  ROE                  report of examination




                       In-Depth Review of Unity National Bank (OIG-12-036)                                     Page i
This Page Intentionally Left Blank.
                                                                                                  Audit
OIG
The Department of the Treasury
                                                                                                  Report
Office of Inspector General




                                            January 11, 2012

                                            John G. Walsh
                                            Acting Comptroller of the Currency

                                            This report presents the results of our in-depth review of the failure
                                            of Unity National Bank (Unity), of Cartersville, Georgia, and of the
                                            Office of the Comptroller of the Currency’s (OCC) supervision of
                                            the institution. OCC closed Unity and appointed the Federal Deposit
                                            Insurance Corporation (FDIC) as receiver on March 26, 2010. As of
                                            September 30, 2011, FDIC estimated that the loss to the Deposit
                                            Insurance Fund (DIF) 1 would be $71 million. FDIC also estimated
                                            that Unity’s failure resulted in a loss of $174,000 to the
                                            Transaction Account Guarantee Program.

                                            Our in-depth review of Unity was made pursuant to section 38(k)
                                            of the Federal Deposit Insurance Act. We initiated this review
                                            under the material loss review (MLR) provision of section 38(k),
                                            which at the time of Unity’s failure defined a loss to the DIF as
                                            material if the loss exceeded the greater of $25 million or 2 percent
                                            of the institution’s total assets. However, effective July 21, 2010,
                                            section 38(k) was amended by P.L. 111-203. As a result, among
                                            other things, the loss threshold to the DIF triggering a required MLR
                                            was reset to losses that exceed $200 million for calendar years
                                            2010 and 2011, $150 million for calendar years 2012 and 2013,
                                            and $50 million for calendar year 2014 and thereafter (with a
                                            provision that the threshold can be raised temporarily to
                                            $75 million if certain conditions are met). As amended, section
                                            38(k) provides that the cognizant Inspector General is to perform
                                            an in-depth review of failures under the material loss threshold if
                                            the Inspector General determines that unusual circumstances exist
                                            with respect to the failure. Because our audit fieldwork was
                                                            
1
  Certain terms that are underlined when first used in this report are defined in Safety and Soundness:
Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is available on the
Treasury Office of Inspector General’s website at http://www.treasury.gov/about/organizational-
structure/ig/Pages/by-date-2011.aspx.


                                            In-Depth Review of Unity National Bank (OIG-12-036)             Page 1
substantially finished when section 38(k) was amended, we
determined that this was an unusual circumstance and therefore
completed our review of Unity as an in-depth review.

Our objectives were to determine the causes of Unity’s failure;
assess OCC’s supervision of Unity, including implementation of the
prompt corrective action (PCA) provisions of section 38; and make
recommendations for preventing such a loss in the future. To
accomplish these objectives, we reviewed the supervisory files and
interviewed OCC and FDIC officials. We conducted our fieldwork
from June through July 2010. Appendix 1 contains a more detailed
description of our review objectives, scope, and methodology.
Appendix 2 contains background information on Unity’s history and
OCC’s assessment fees and examination hours.

In brief, Unity failed because of its aggressive growth strategy
concentrated in commercial real estate (CRE) including acquisition,
development, and construction (ADC) loans, and ineffective credit
risk management. These factors, combined with the dramatic real
estate market decline, resulted in Unity’s asset quality
deterioration, and the bank’s eventual failure. OCC provided
ongoing supervision of Unity through regular on-site and off-site
reviews. Although OCC’s supervision did not prevent a loss to the
DIF, we concluded that its supervision of Unity was appropriate.

We are not making any new recommendations to OCC as a result
of our in-depth review of Unity. We provided a draft of this report
to OCC for its review. In a written response, which is included as
appendix 3, OCC did not provide any specific comments on the
report content.

Causes of Unity’s Failure
Aggressive Growth Strategy

Unity’s board and management pursued an aggressive growth
strategy primarily throughout the Atlanta, Georgia, metropolitan
market. From January 1, 2005, to December 31, 2009, total
assets increased $102 million, or 51 percent. The bank achieved
its asset growth with CRE loans.



In-Depth Review of Unity National Bank (OIG-12-036)            Page 2
                                            OCC guidance to examiners provides that when the total reported
                                            loans for construction, land development, and other land represent
                                            100 percent or more of the institution’s total risk-based capital, a
                                            concentration risk exists, which may need further analysis. 2 From
                                            2005 through 2009, ADC concentration levels ranged from 178
                                            percent to 251 percent of Unity’s total risk-based capital, which
                                            exceeded this supervisory benchmark.

                                            The board and management's strategy resulted in asset growth
                                            that exceeded capital growth, causing the bank’s capital ratios to
                                            gradually decline over several years. To support the growth, the
                                            bank’s holding company bolstered Unity's capital levels by
                                            downstreaming funds from the proceeds of a $3 million trust
                                            preferred offering in 2003. Unity also used noncore, wholesale
                                            funding, such as more costly brokered deposits, Internet
                                            Certificates of Deposit, and Federal Home Loan Bank advances, to
                                            support its growth strategy. As of December 31, 2009, brokered
                                            deposits stood at $29 million, nearly triple the amount it held in
                                            June 2005, and Internet Certificates of Deposit totaled
                                            approximately $57 million. When the bank fell below the PCA well-
                                            capitalized level on June 30, 2009, Unity’s access to brokered
                                            deposits and high interest rate deposits was restricted.

                                            Weak Credit Administration Practices

                                            OCC guidance states that credit administration is an important
                                            control mechanism and that backroom processing functions are
                                            often the first line of defense. Weaknesses in credit administration
                                            can pose significant safety and soundness issues.

                                            Unity lacked sound credit administration practices. OCC noted that
                                            Unity historically based credit decisions more on character and
                                            collateral than cash flow and capacity, but that approach was no
                                            longer appropriate given the then current market environment and
                                            loan portfolio. In its 2008 report of examination (ROE), OCC
                                            commented that Unity’s credit administration and monitoring of its
                                            loan portfolio needed to improve. OCC found financial or collateral
                                            exceptions in 31 of 91 loans (34 percent of sampled loans). Also
                                            during the 2008 examination, OCC downgraded 14 of 40 problem
                                                            
2
 OCC Bulletin 2006-46, Concentrations in Commercial Real Estate Lending, Sound Risk Management
Practices (Dec. 6, 2006).


                                            In-Depth Review of Unity National Bank (OIG-12-036)             Page 3
             loans (35 percent of loans reviewed). In the 2008 ROE, examiners
             stated that if Unity’s management had timely identified the
             riskiness of the bank’s loans, it could have dealt effectively with
             troubled assets. In the 2009 ROE, OCC stated that Unity’s
             management did not obtain updated loan appraisals or evaluate
             renewal of existing credits. OCC also reported loan administration
             exceptions such as missing financial statements to document
             repayment sources. Furthermore, OCC stated that Unity’s
             allowance for loan and lease losses (ALLL) reserve was
             underestimated by $2 million in 2008 and by $4.6 million in 2009.

             Unity’s declining asset quality was exacerbated by credit
             administration weaknesses, particularly the board’s and
             management’s failure to respond to changing market conditions by
             changing lending and problem loan identification practices.


OCC’s Supervision of Unity
             OCC identified several key risks in Unity’s operations through its
             on-site and off-site reviews. These risks included an asset growth
             strategy funded in part with wholesale funding, high concentrations
             of CRE and ADC loans, weak credit administration practices, and
             failure to change lending practices in an evolving market. OCC
             timely identified and reported these problems to Unity, and issued
             enforcement actions and used its authority under PCA. Based on
             our review of the supervisory record, we concluded that OCC’s
             supervision of Unity was appropriate.

             Table 1 summarizes the results of OCC’s examinations of Unity
             from 2004 to 2009.




             In-Depth Review of Unity National Bank (OIG-12-036)           Page 4
 Table 1. OCC Examinations of Unity National Bank (March 2004–August 2009)

                                                             Examination Results
 Date Started                                                                            Informal/Formal
 Type of          Assets            CAMELS                           No. of corrective   enforcement
 examination      (millions)a       rating          No. of MRAs      actions             actions
 3/1/2004
 (Full-scope      $160              2/222222       0                 0                   None
 examination)
 9/6/2005
 (Full-scope      $219              2/222222       0                 0                   None
 examination)
 2/26/2007
 (Full-scope      $266              2/222222       0                 0                   None
 examination)
                                                                                         Formal
                                                                                         agreement issued
 9/22/2008                                                                               2/3/2009, and
 (Full-scope      $315              3/433432        5                0                   individual
 examination)                                                                            minimum capital
                                                                                         ratio issued
                                                                                         4/14/2009
                                                                                         PCA notice
 8/3/2009                                                                                issued 9/15/09,
 (Full-scope      $298              5/555543        7                3                   and capital
 examination)                                                                            directive issued
                                                                                         12/16/2009
Source: OCC ROEs, PCA directive, individual minimum capital ratio.
a
  This table reflects assets at examination start dates.


                          In the 2007 ROE, examiners reported that asset growth exceeded
                          earnings and capital growth, causing Unity’s capital ratios to
                          decline. Examiners also noted that funds from the trust preferred
                          offering, described earlier, increased capital, and compensated for
                          Unity’s risk. While OCC examiners found some issues during the
                          2007 examination, they told us these were technical exceptions,
                          which did not rise to the level of matters requiring attention
                          (MRAs). Given the problems as documented by the examiners, we
                          believe the examiners’ conclusions were reasonable.

                          The slowing economy and the sharp decline in the Atlanta real
                          estate market adversely impacted Unity’s asset growth by 2008.
                          During the 2008 examination, examiners reported that the bank’s
                          policies and lending standards had promoted growth which led to
                          problems in the loan portfolios. OCC’s first quarter monitoring of


                          In-Depth Review of Unity National Bank (OIG-12-036)                         Page 5
                                            2008 identified that Unity’s capital levels continued to be
                                            pressured by loan growth of 9 percent. Additionally, negative asset
                                            quality trends adversely impacted earnings, and credit risk began to
                                            increase.

                                            In the ROE for the 2008 examination, OCC issued MRAs directing
                                            Unity to (1) implement a plan for promptly identifying and resolving
                                            criticized assets; (2) revise loan policies, procedures, and
                                            underwriting standards to address current market conditions and
                                            the condition of the loan portfolio, including strengthening the risk
                                            management process for CRE concentrations; (3) ensure liquidity
                                            sources are sufficient to meet fund demand; (4) finalize and
                                            implement capital plans to protect existing capital and ensure
                                            additional support is available if needed; and (5) revise the bank’s
                                            business plans and strategies for the next 3 years. As a result of its
                                            supervisory concerns, OCC also entered into a Formal Agreement
                                            with the bank on February 3, 2009. The agreement contained eight
                                            actionable articles which instructed the board and management to,
                                            among other things: (1) address criticized assets; (2) implement a
                                            CRE concentration risk management program consistent with
                                            regulatory guidance, which includes portfolio stress testing and
                                            sensitivity analysis of CRE concentrations; 3 (3) improve loan
                                            portfolio management; and (4) establish a program for maintenance
                                            of an adequate ALLL balance.

                                            Also, on February 3, 2009, OCC notified the board of a proposed
                                            individual minimum capital ratio (IMCR) citing Unity’s less-than-
                                            satisfactory condition and significant deterioration in asset quality.
                                            OCC explained that although Unity was well-capitalized for PCA
                                            purposes, the PCA well-capitalized minimum ratios alone were not
                                            sufficient given the bank’s current condition. The proposed IMCR
                                            required that the bank achieve and maintain a Tier-1 leverage ratio
                                            at least equal to 8 percent of adjusted total assets and a total risk-
                                            based capital ratio at least equal to 11 percent of risk weighted
                                            assets (compared to PCA minimums for well capitalized of Tier 1
                                            leverage ratio at least equal to 5 percent of adjusted total assets
                                            and total risk-based capital ratio at least equal to 10 percent of risk

                                                            
3
  Stress testing is a risk management concept where a bank alters assumptions about one or more
financial, structural, or economic variables to determine the potential effect on the performance of a
loan, concentration, or portfolio segment.


                                            In-Depth Review of Unity National Bank (OIG-12-036)               Page 6
weighted assets). On April 14, 2009, OCC notified Unity’s board
by letter of the establishment of the IMCR.

In its 2009 examination, OCC found that Unity’s condition had
deteriorated substantially and that poor management decisions
combined with a weak economy threatened Unity’s viability. In the
related ROE, OCC added two more MRAs to the five outstanding
MRAs. The two new ones required Unity to develop an appropriate
ALLL methodology to conform to regulatory guidance, and achieve
compliance with the formal agreement and the IMCR.

In summary, Unity’s board and management did not control loan
growth and react to market conditions that began in 2007. In
2008, OCC concluded that based on past performance Unity’s
board and management should be capable of addressing the bank’s
problems. However, by 2009, examiners concluded that poor
management decisions threatened the bank’s viability and that the
severity of problems was beyond the ability of Unity’s board and
management to correct. This resulted in the closure of the bank in
March 2010.

OCC Appropriately Used PCA

The purpose of PCA is to resolve problems of insured depository
institutions with the least possible long-term loss to the DIF. PCA
requires federal banking agencies to take certain actions when an
institution’s capital drops to certain levels. PCA also gives
regulators flexibility to supervise institutions based on criteria other
than capital levels to help reduce deposit insurance losses caused
by unsafe and unsound practices. As of June 30, 2009, Unity was
undercapitalized under the PCA minimum capital standards based
on its amended call report, which showed a total risk-based capital
ratio of 7.1 percent. OCC implemented PCA as described below:

•   In a letter dated September 15, 2009, OCC notified Unity of its
    undercapitalized status and required the bank to submit an
    acceptable capital restoration plan (CRP) to OCC no later than
    October 13, 2009.




In-Depth Review of Unity National Bank (OIG-12-036)                Page 7
                                            •      On September 23, 2009, OCC assigned the bank a CAMELS
                                                   composite of 5 and transferred supervision of Unity to OCC’s
                                                   Special Supervision Division.

                                            •      Unity submitted a CRP to OCC on October 13, 2009. In a letter
                                                   dated November 24, 2009, OCC notified Unity that it did not
                                                   accept the bank's CRP. In this regard, OCC was unable to
                                                   determine that the projected capital infusion described in the
                                                   CRP was a realistic possibility and that it was unlikely to
                                                   succeed in restoring the bank's capital.

                                            •      Unity’s call report for the quarter ended December 31, 2009,
                                                   showed that its PCA capital level was significantly
                                                   undercapitalized. In a letter dated March 17, 2010, OCC
                                                   informed Unity of its continuing obligation to submit an
                                                   acceptable CRP. OCC closed the bank 9 days later.

Conclusion

                                            We are not making any new recommendations to OCC as a result
                                            of our in-depth review of the Unity failure. As we have reported in
                                            previous MLRs, high concentrations in CRE loans were a significant
                                            factor in the failure of other banks. For example, in our May 2010
                                            MLR report on Union Bank, we recommended that OCC work with
                                            its regulatory partners to determine whether to propose legislation
                                            and/or change regulatory guidance to establish limits or other
                                            controls for concentrations that pose an unacceptable safety and
                                            soundness risk and determine an appropriate range of examiner
                                            response to high-risk concentrations. 4 The failure of Unity was
                                            another case where a bank failed primarily because of its high
                                            concentration in CRE loans.

                                                                        * * * * *
                                            We appreciate the courtesies and cooperation provided to our staff
                                            during the audit. If you wish to discuss the report, you may
                                            contact me at (202) 927-6512 or Susan Roy, Audit Manager, at

                                                            
4
  Safety and Soundness: Material Loss Review of Union Bank, National Association, OIG-CA-10-009
(May 11, 2010). The review of Union Bank was performed by Mayer Hoffman McCann P.C., an
independent public accounting firm, under the supervision of our office.


                                            In-Depth Review of Unity National Bank (OIG-12-036)              Page 8
(202) 927-5746. Major contributors to this report are listed in
appendix 4.


/s/
Michael J. Maloney
Audit Director




In-Depth Review of Unity National Bank (OIG-12-036)               Page 9
                                            Appendix 1
                                            Objectives, Scope, and Methodology




                                            We conducted an audit of the failure of Unity National Bank
                                            (Unity), of Cartersville, Georgia, in response to section 38(k) of the
                                            Federal Deposit Insurance Act. 5 Our objectives were to determine
                                            the causes of Unity’s failure; assess the Office of the Comptroller
                                            of the Currency’s (OCC) supervision of Unity, including
                                            implementation of the prompt corrective action provisions of
                                            section 38; and make recommendations for preventing such a loss
                                            in the future. To accomplish our objectives, we conducted
                                            fieldwork at OCC’s southern district office in Dallas, Texas, its field
                                            office in Atlanta, Georgia, and Unity’s former headquarters in
                                            Cartersville, Georgia. We conducted our fieldwork from June 2010
                                            through July 2010.

                                            To assess the adequacy of OCC’s supervision of Unity, we
                                            determined (1) when OCC first identified Unity’s safety and
                                            soundness problems, (2) the gravity of the problems, and (3) the
                                            supervisory response OCC took to get the bank to correct the
                                            problems. We also assessed whether OCC (1) might have
                                            discovered problems earlier; (2) identified and reported all the
                                            problems; and (3) issued comprehensive, timely, and effective
                                            enforcement actions that dealt with any unsafe or unsound
                                            activities. Specifically, we performed the following work:

                                            •      We determined that the time period relating to OCC’s
                                                   supervision of Unity covered by our audit would be from
                                                   March 2004 through Unity’s failure on March 26, 2010. This
                                                   period included five safety and soundness examinations before
                                                   OCC assigned it a composite rating of 5.

                                            •      We reviewed OCC’s examination reports, supporting
                                                   documentation, and related correspondence. We performed this
                                                   review to gain an understanding of any issues identified and the
                                                   approach and methodology OCC used to assess the bank’s
                                                   condition.

                                            •      We analyzed OCC’s supporting supervisory documentation and
                                                   related supervisory correspondence. We also assessed the
                                                   regulatory action OCC used to compel bank management to
                                                   address deficient conditions identified during examinations. We

                                                            
5
    12 U.S.C. § 1831o(k).


                                            In-Depth Review of Unity National Bank (OIG-12-036)              Page 10
                                            Appendix 1
                                            Objectives, Scope, and Methodology




                                                   did not conduct an independent or separate detailed review of
                                                   the external auditor’s work or associated workpapers other than
                                                   those incidentally available through the supervisory files.

                                            •      We interviewed and discussed various aspects of the
                                                   supervision of Unity with OCC officials, examiners, and an
                                                   attorney to obtain their perspective on the bank’s condition and
                                                   the scope of the examinations.

                                            •      We interviewed officials from FDIC’s Division of Resolutions and
                                                   Receiverships who were involved in the receivership process for
                                                   Unity.

                                            •      We assessed OCC’s actions based on its internal guidance and
                                                   requirements of the Federal Deposit Insurance Act. 6

                                            We conducted this performance audit in accordance with generally
                                            accepted government auditing standards. Those standards require
                                            that we plan and perform the audit to obtain sufficient, appropriate
                                            evidence to provide a reasonable basis for our findings and
                                            conclusions based on our audit objectives. We believe that the
                                            evidence obtained provides a reasonable basis for our findings and
                                            conclusions based on our audit objectives.




                                                            
6
    12 U.S.C. § 1811 et seq.


                                            In-Depth Review of Unity National Bank (OIG-12-036)              Page 11
Appendix 2
Background




History of Unity National Bank

Unity National Bank (Unity) was established in November 1998 as
a chartered institution in Cartersville, Georgia. From the bank’s
inception, the Office of the Comptroller of the Currency (OCC) was
its primary federal regulator. Until March 26, 2010, Unity operated
five full-service offices. Unity was 100 percent owned by its
holding company, Unity Holdings, Inc. Consistent with its charter,
the bank engaged in general commercial and retail banking
businesses, primarily in Bartow County, Georgia, and surrounding
counties. Starting in 2005, Unity’s board and management pursued
an asset growth strategy that relied on developing significant
commercial real estate concentrations in the local real estate
market. This growth was funded in part with wholesale funding. A
substantial portion of these concentrations consisted of residential
lots and loans secured by land in Unity’s primary market.

OCC Assessments Paid by Unity

OCC funds its operations in part through semiannual assessments
on national banks. OCC publishes annual fee schedules, which
include general assessments to be paid by each institution based
on the institution’s total assets. If the institution is a problem bank
(i.e., it has a CAMELS composite rating of 3, 4, or 5), OCC also
applies a surcharge to the institution’s assessment to cover
additional supervisory costs. These surcharges are calculated by
multiplying the sum of the general assessment by 50 percent for
3-rated institutions or by 100 percent for 4- and 5-rated
institutions. Table 2 shows the assessments that Unity paid to
OCC from 2004 through 2009 and their share of the total
assessments paid by OCC-regulated banks.




In-Depth Review of Unity National Bank (OIG-12-036)              Page 12
Appendix 2
Background




Table 2: Assessments Paid by Unity to OCC, 2004–2009

                         Exam          Amount      Percent of Total
Billing Period           Rating          Paid           Collections
January 2004                2         $28,878               0.012
July 2004                   2          30,263               0.012 
January 2005                2          33,951               0.012 
July 2005                   2          35,836               0.012 
March 2006                  2          38,064               0.013
September 2006              2          39,681               0.012
March 2007                  2          42,608               0.013
September 2007              2          46,285               0.014
March 2008                  2          44,134               0.012
September 2008              3          46,238               0.013
March 2009                  3          69,084               0.018
September 2009              5          66,921               0.018
Source: OCC.

Number of OCC Staff Hours Spent Examining Unity

Table 3 shows the number of OCC staff hours spent examining
Unity.

Table 3: Number of OCC Hours Spent Examining Unity, 2004-2009

                                         Number of
Examination                             Examination
Start Date                                  Hoursa
3/1/2004                                        471
9/6/2005                                        560
2/26/2007                                       468
9/22/2008                                       722
8/3/2009                                      1,090
Source: OCC.
a
  Hours are totaled for safety and soundness
examinations, information technology examinations, and
compliance examinations and do not include time spent
performing off-site monitoring.




In-Depth Review of Unity National Bank (OIG-12-036)                   Page 13
Appendix 3
Management Response




In-Depth Review of Unity National Bank (OIG-12-036)   Page 14
Appendix 4
Major Contributors to This Report




Susan I. Roy, Audit Manager
Horace A. Bryan, Auditor-in-Charge
John B. Gauthier, Auditor
Maurice L. George, Auditor
Eleanor P. Kang, Program Analyst
Andrea D. Smith, Auditor
Kenneth F. O'Loughlin, Referencer




In-Depth Review of Unity National Bank (OIG-12-036)   Page 15
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

U.S. Senate

    Chairman and Ranking Member,
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member,
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member,
    Committee on Financial Services




In-Depth Review of Unity National Bank (OIG-12-036)            Page 16
